Memorandum

To:            Secretary Kempthorne

From:          Earl E. Devaney
               Inspector General

Subject:       OIG Investigations of MMS Employees

        This memorandum conveys the final results of three separate Office of Inspector General
(OIG) investigations into allegations against more than a dozen current and former Minerals
Management Service (MMS) employees. In the case of one former employee, Jimmy Mayberry,
he has already pled guilty to a criminal charge. The cases against former employees, Greg Smith
and Lucy Querques Dennet, were referred to the Public Integrity Section of the Department of
Justice (DOJ). However, that office declined to prosecute. The remaining current employees
await your discretion in imposing corrective administrative action. Others have escaped
potential administrative action by departing from federal service, with the usual celebratory
send-offs that allegedly highlighted the impeccable service these individuals had given to the
Federal Government. Our reports belie this notion.

        Collectively, our recent work in MMS has taken well over two years, involved countless
OIG human resources and an expenditure of nearly $5.3 million of OIG funds. Two hundred
thirty-three witnesses and subjects were interviewed, many of them multiple times, and roughly
470,000 pages of documents and e-mails were obtained and reviewed as part of these
investigations.

        I know you have shared my frustration with the length of time these investigations have
taken, primarily due to the criminal nature of some of these allegations, protracted discussions
with DOJ and the ultimate refusal of one major oil company - Chevron - to cooperate with our
investigation. Since you have already taken assertive steps to replace key leadership and staff in
the affected components of MMS, I am confident that you will now act quickly to take the
appropriate administrative action to bring this disturbing chapter of MMS history to a close.

A Culture of Ethical Failure

       The single-most serious problem our investigations revealed is a pervasive culture of
exclusivity, exempt from the rules that govern all other employees of the Federal Government.
        In the matter involving Ms. Dennet, Mr. Mayberry and Milton Dial, the results of this
investigation paint a disturbing picture of three Senior Executives who were good friends, and
who remained calculatedly ignorant of the rules governing post-employment restrictions,
conflicts of interest and Federal Acquisition Regulations to ensure that two lucrative MMS
contracts would be awarded to the company created by Mr. Mayberry - Federal Business
Solutions - and later joined by Mr. Dial. Ms. Dennet manipulated the contracting process from
the start. She worked directly with the contracting officer, personally participated on the
evaluation team for both contracts, asked for an increase to the first contract amount, and had
Mayberry prepare the justification for the contract increase. Ms. Dennet also appears to have
shared with Mr. Mayberry the Key Qualification criteria upon which bidders would be judged,
two weeks before bid proposals on the first contract were due.

        In the other two cases, the results of our investigation reveal a program tasked with
implementing a "business model" program. As such, Royalty in Kind (RIK) marketers donned a
private sector approach to essentially everything they did. This included effectively opting
themselves out of the Ethics in Government Act, both in practice, and, at one point, even
explored doing so by policy or regulation.

       Not only did those in RIK consider themselves special, they were treated as special by
their management. For reasons that are not at all clear, the reporting hierarchy of RIK bypassed
the one supervisor whose integrity remained intact throughout, Debra Gibbs-Tschudy, the
Deputy Associate Director in Denver, where RIK is located. Rather, R1K was reporting directly
to Associate Director Dennet, who was located some 1500 miles away in Washington, DC, and
to whom the unbridled, unethical conduct of RIK employees was apparently invisible (although
the Associate Director had been made aware of the plan by RIK to explore more formal
exemption from the ethics rules.)

        More specifically, we discovered that between 2002 and 2006, nearly 1/3 of the entire
RIK staff socialized with, and received a wide array of gifts and gratuities from, oil and gas
companies with whom RIK was conducting official business. While the dollar amount of gifts
and gratuities was not enormous, these employees accepted gifts with prodigious frequency. In
particular, two RIK marketers received combined gifts and gratuities on at least 135 occasions
from four major oil and gas companies with whom they were doing business - a textbook
example of improperly receiving gifts from prohibited sources. When confronted by our
investigators, none of the employees involved displayed remorse.

        We also discovered a culture of substance abuse and promiscuity in the RIK program -
both within the program, including a supervisor, Greg Smith, who engaged in illegal drug use
and had sexual relations with subordinates, and in consort with industry. Internally, several
staff admitted to illegal drug use as well as illicit sexual encounters. Alcohol abuse appears to
have been a problem when RIK staff socialized with industry. For example, two RIK staff
accepted lodging from industry after industry events because they were too intoxicated to drive
home or to their hotel. These same RIK marketers also engaged in brief sexual relationships
with industry contacts. Sexual relationships with prohibited sources cannot, by definition, be
arms-length.




                                                 2
         Finally, we discovered that two of the RIK employees who accepted gifts also held
inappropriate outside employment and failed to properly report the income they received from
this work on their financial disclosure forms. Smith, in particular, deliberately secreted the true
nature of his outside employment - he pitched oil and gas companies that did business with RIK
to hire the outside consulting firm - to prevent revealing what would otherwise, at a minimum,
be a clear conflict of interest.

Conclusion

       As you know, I have gone on record to say that I believe that 99.9 percent of DOI
employees are hard-working, ethical and well-intentioned. Unfortunately, from the cases
highlighted here, the conduct of a few has cast a shadow on an entire bureau.

       In summary, our investigation revealed a relatively small group of individuals wholly
lacking in acceptance of or adherence to government ethical standards; management that through
passive neglect, at best, or purposeful ignorance, at worst, was blind to easily discernible
misconduct; and a program that had aggressive goals and admirable ideals, but was launched
without the necessary internal controls in place to ensure conformity with one of its most
important principles: "Maintain the highest ethical and professional standards." This must be
corrected.

Recommendations

       In conclusion, we offer the following Recommendations.

   1. Take appropriate administrative corrective action.

       Some very serious misconduct is identified in these reports. While the DIG generally
       does not take a position concerning what administrative corrective action might be
       appropriate in any given matter, in this instance there may be significant enough
       misconduct to warrant removal for some individuals. Given the unwillingness of some to
       acknowledge their conduct as improper, the subjects of our reports should be carefully
       considered for a life-time ban from working in the RIK program.

   2. Develop an enhanced ethics program designed specifically for the RIK program.

       Given the RIK culture, an enhanced ethics program must be designed for RIK, including,
       but not limited to, 1) an explicit prohibition against acceptance of any gifts or gratuities
       from industry, regardless of value; 2) a robust training program to include written
       certification by employees that they know and understand the ethics requirements by
       which they are bound; and 3) an augmented MMS Ethics Office.

   3. Develop a clear, strict Code of Conduct for the RIK program.

       A fundamental Code of Conduct with clear obligations, prohibitions, and consequences
       appears to be necessary to repair the culture of misconduct in the RIK program. This




                                                 3
      code should include a clear prohibition against outside employment with the oil and gas
      industry or consultants to that industry. Given the considerable financial responsibilities
      involved, MMS should also consider implementing a Random Drug Testing program
      specifically for RIK.

   4. Consider changing the reporting structure of RIK.

      The management reporting structure of the RIK program must be seriously reconsidered.
      Given the challenges that will be faced in rebuilding this program, it seems imperative
      that RIK have management oversight in immediate proximity, not some 1,500 miles
      away in Washington, DC.

      If you have any questions, please do not hesitate to contact me at (202) 208-5745.

Attachments




                                               4
         Investigative Report
                                              Gregory W. Smith



                                           Report Date: August 7, 2008
                                     Date Posted to Web: September 10, 2008




   This report contains information that has been redacted pursuant to 5 U.S.C. §§ 552(b)(2), (b)(6), and (b)(7)(C) of the
Freedom of Information Act. Some references indicating gender were written in the masculine form to protect the identities
   of individuals and to facilitate the reading of the report. Supporting documentation for this report may be obtained by
                            sending a written request to the OIG Freedom of Information Office.
                                    RESULTS IN BRIEF
The Office of Inspector General (OIG) initiated this investigation in late 2006 based on the allegations
of a Confidential Source (CS) regarding misconduct by Gregory W. Smith, Program Director, Royalty
in Kind Program (RIK), Minerals Revenue Management (MRM), Minerals Management Service
(MMS), Lakewood, CO. The CS alleged that Smith had engaged in outside employment that conflicted
with his RIK position, that he accepted gifts from the oil and gas industry, and that he engaged in sex
and drug use with subordinates.

Our investigation disclosed that between April 2002 and June 2003, Geomatrix Consultants, Inc.
(Geomatrix), an environmental and engineering consulting firm, paid Smith over $30,000 for his work
in marketing Geomatrix to various oil and gas companies, most of whom, because of their business
relationships with RIK, were considered prohibited sources.

We also confirmed that Smith received almost $1,000 in gifts from the oil and gas industry and
engaged in sex with two subordinates and drug use with at least one subordinate. When interviewed by
the OIG, Smith minimized the drug use and sexual activity. In addition, we learned that he also
suggested to other RIK employees that they should lie to OIG investigators.

Smith retired from MMS during the course of this investigation. The results of this investigation, to
include a substantial amount of information obtained through the federal grand jury process that is not
included here, were provided to the Public Integrity Section of the U.S. Department of Justice (DOJ) in
March 2008 for prosecutorial consideration. In May 2008, DOJ advised that it was declining to
prosecute Smith on various charges.

                                       BACKGROUND
MRM is a Denver-based division of MMS and is responsible for managing all royalties associated with
both onshore and offshore oil and gas production from federal mineral leases. Federal law allows
MRM to collect royalty payments either in value, meaning in the form of cash payments from
companies producing from federal leases, or in kind, meaning in the form of actual oil or gas
production.

When MRM collects royalties in kind, the oil or gas received from producers is offered for sale on the
open market, and the proceeds from these sales are included with other collections made by MRM.
The RIK program, within MRM, is responsible for managing these in kind sales. Between October
2005 and September 2006, RIK reported collecting approximately $3.75 billion.

Gregory W. Smith served as the deputy program manager of RIK between approximately 2001 and
2004. In 2005, he was promoted to be the RIK director, a Senior Executive Service position, where he
remained until he was detailed out of RIK in January 2007. Smith retired from MMS in May 2007.
While at RIK, Smith oversaw all of RIK’s operations, managed its 65 or so employees, and served as
the public face of RIK as its senior-most representative to the oil and gas industry.

                           DETAILS OF INVESTIGATION
The OIG initiated this investigation in late 2006 based on the allegations of a CS regarding misconduct
by Smith. The CS specifically alleged that Smith had (1) engaged in outside employment with a
consultant company that conflicted with his RIK position, (2) accepted gifts from oil and gas

                                                   1
companies conducting business with the RIK Program, and (3) engaged in sex and drug use with RIK
subordinates.

We initially focused our investigation on the three specific allegations made by the CS. However, we
later expanded the scope of our investigation when we developed evidence that Smith had lied to
investigators during his initial OIG interview and that he may have directed other witnesses to lie to the
OIG. During the course of this investigation, we conducted over 50 interviews with MMS employees
and industry representatives and ultimately reviewed thousands of e-mails, numerous ethics files, and
other relevant documents. We have organized our report in four specific sections that mirror the
allegations made by the CS and one developed by the OIG.

Agent’s Note: We conducted this investigation separately from another OIG investigation regarding
nine RIK employees suspected of unethical behavior and personal improprieties.

                                              Geomatrix

According to its Web site, Geomatrix Consultants, Inc., (Geomatrix) is “a diversified technical
consulting and engineering firm” with offices located throughout the United States. Geomatrix
employs over 450 scientists, engineers, and technical experts and performs work for various industries.

We interviewed Tony Daus, the President of Geomatrix, who stated that he first met Smith in
November 2001 on a flight from Denver to Houston. According to Daus, he and Smith were seated
next to each other in the first-class cabin when they began talking. During the course of this
conversation, Daus said he learned that Smith was employed by MMS and worked in the Gulf of
Mexico (Gulf). Daus said he explained to Smith that Geomatrix wanted to further develop its work for
oil and gas companies in the Gulf.

At the conclusion of the flight, Daus said he and Smith agreed to discuss Smith’s possible employment
with Geomatrix, and after subsequent discussions, they agreed that Smith would begin work as a
consultant for the firm. Daus said he was concerned about possible conflict-of-interest issues, but
Smith assured him that MMS would approve his work with Geomatrix. In fact, Daus said Smith told
him he routinely performed outside consulting work and that it was not necessarily frowned upon by
MMS.

Daus explained that he hired Smith with the intent of Smith helping Geomatrix develop more business
with oil and gas companies in the Gulf. For example, he explained that if Smith had advance
knowledge of large projects underway in the Gulf, Geomatrix would have the potential opportunity to
“get in the door quickly” and find out how it could become involved in these projects. In addition,
Daus said he believed that if Smith had connections in the Gulf, he would be able to put Geomatrix in
contact with the companies who were planning these projects. Daus stated that what “attracted” him to
Smith was his knowledge of “what’s going on and who’s doing what” in the Gulf.

Daus also said he hired Smith because he was well-connected in the oil and gas industry – not because
of Smith’s technical background in geology. He stated that he did not view Smith as a person who was
going to provide technical support to Geomatrix and instead viewed him as an “entrée” to prospective
clients.

According to Daus, he and Smith agreed that Smith could not work on any potential project involving a
contract between Geomatrix and MMS. Daus stated that this was the only area from which Smith
recused himself.
                                                    2
We interviewed four other Geomatrix employees concerning the circumstances of Smith’s hiring. They
each stated that Smith was hired because of his contacts in the oil and gas industry and his ability to use
these contacts to generate business opportunities for Geomatrix. None of the Geomatrix employees
interviewed were aware of any technical work that Smith had performed for Geomatrix.

We interviewed an MMS employee who stated that Smith once asked her to send a document that
appeared to be some type of agreement to a person named Tony. She recalled that Smith asked her to
send it by Federal Express, which she did, using the MRM Federal Express account. She also recalled
that on one occasion while Smith was at her residence, she overheard him talking on his cell phone to
someone named “Tony.”

A review of MRM Federal Express shipping records disclosed that on March 4, 2002, an envelope was
shipped by “FedEx Priority Overnight” at MRM’s expense to Daus at the Geomatrix office in Oakland,
CA.

In November 2007, we interviewed Smith in connection with a proffer agreement with DOJ. During
that interview, Smith confirmed that he first met Daus on a flight from Denver to Houston in late 2001.
Smith stated that during their discussion on the airplane, Daus told him he was interested in developing
a business line for Geomatrix in the oil and gas field, and Daus expressed an interest in Smith’s
potential ability to provide assistance in this area. Smith said their discussion centered on Smith’s
possible interest in being hired by Geomatrix as a consultant, not an employee, for a relatively short-
term assignment.

Smith stated that he told Daus that he possessed information and knowledge concerning the Gulf that
he could quickly provide to Geomatrix. He explained that this information was publicly available, but
he could provide it to Geomatrix much more quickly than they could obtain it themselves. Smith also
said he told Daus that he had previously worked for another environmental consulting firm and thus
had experience in this area. Smith said he and Daus continued their discussions through 2001 and into
early 2002, and they eventually agreed that Smith would join Geomatrix as a consultant.

                                Smith’s Previous Outside Employment

A review of MMS ethics records disclosed that in February 1992, Smith signed a “Request to Engage
in Outside Work or Activity” form (MMS Form 1510) in connection with his employment by
Greystone Environmental Services, a Colorado environmental consulting firm now known as Ageiss
Environmental, Inc. Mary Ann Seidel, the MMS Ethics Officer at the time, approved the request in
April 1992.

We interviewed Seidel, who recalled Smith’s work for Ageiss. Seidel stated that at one point during
her discussions with Smith about this work, they discussed the fact that he would have to clear the
individual clients of Ageiss with her to ensure they were not a contractor to, or seeking to do business
with, MMS. In addition, she said Smith received a letter from her reminding him to be cognizant of
possible conflict-of-interest issues.

We interviewed Jeffrey Lawrence, the Chief Executive Officer of Ageiss, who stated that Smith was
“very clear that he had to separate what he was doing for Interior with what he [was] doing on the
outside.” Lawrence also said Smith was “very clear” about avoiding any conflict of interest.



                                                    3
We interviewed Kevin Gambrell, former Director, Farmington Indian Minerals Office, MMS, who
stated that he began working with Smith in 1996 on Indian minerals issues. In 1998, Gambrell said he
was considering a new computer system for compliance analysis for oil and gas royalty collection.
When Smith learned this, Gambrell said Smith began to pressure him into hiring a particular Colorado
contractor. He said Smith and the contractor also visited the Farmington Indian Minerals Office to urge
Gambrell to procure the contractor’s services. Gambrell stated the following:

       It appeared that they had some type of relationship that looked like it was outside
       of work. It was somebody that Greg Smith had a bias towards. That is how it
       appeared to me…it was almost like Greg Smith was selling the product for the
       contractor. It wasn’t the contractor pushing the project on me; it was Greg Smith
       pushing the project on me…His aggressiveness with that contract seemed to be
       unusual…I felt like I was dealing with a salesman.

Agent’s Note: Given the circumstances, including Smith’s relationship with Ageiss at the time, the fact
that Ageiss was based in Colorado, and the fact that Ageiss did information technology work, we
believe this contractor was, in fact, Ageiss; however, our investigation could not verify this.

                                Smith’s Outside Employment Request

On January 4, 2002, Smith executed a “Request to Engage in Outside Work or Activity” form seeking
permission to work for Geomatrix. Smith reported that his work for Geomatrix would involve
“providing advice on business approaches and review of proposals and reports.” Specifically, Smith’s
request stated the following:

       Mr. Smith will work as a senior consultant providing advice on general approaches to
       consulting based on experience gained in previous engineering/environmental consulting
       and general knowledge of client/contractor relations and expectations. Specific roles
       include:

           •   Advise on general business development approach and business plan content
               relative to client expectations and technical content
           •   Perform direct technical work and provide support for proposals related to
               environmental characterization and impact assessment
           •   Review business development proposals and technical reports
           •   Advise on overall areas of business activity in the energy field using publicly
               available information and general knowledge of associated engineering and
               environmental opportunities. Discuss same with potential clients.

In a section titled “Stipulations,” Smith wrote that he would “recuse himself from any work related to
any Geomatrix proposal, negotiation, or contract with a DOI agency or with an energy firm that is a
contractor to or regulated by MRM.”

Milton Dial, who at the time served as the RIK director and was Smith’s immediate supervisor, signed
Smith’s request on January 16, 2002. When we interviewed Dial, we showed him a copy of Smith’s
request. He identified his signature on it and said he read the form before signing it.

Dial explained that in addition to reviewing Smith’s “Request to Engage in Outside Work or Activity”
form, he also discussed it with Smith, who told him his work for Geomatrix would not conflict with his
MMS duties. Dial stated that he understood Smith would be performing technical and environmental
                                                    4
work as an advisor for Geomatrix. He noted that Smith’s background was in geology and that Smith
wanted to work for a hard-science type firm like Geomatrix. Dial explained that he would not have
approved the request if he had known Smith would be marketing Geomatrix to companies with which
MMS conducted business.

Agent’s Note: Smith used the phrases “technical content,” “direct technical work,” and “technical
reports” in three of the four bullet points in his request form. However, there is no evidence to suggest
that Geomatrix ever intended for Smith to do any technical work. In fact, when we interviewed Daus,
he stated that Smith “didn’t have much in the way of technical strengths for us.”

Further review of Smith’s “Request to Engage in Outside Work or Activity” form disclosed that while
Dial signed the form, neither Seidel nor any other MMS official signed it.

When we interviewed Seidel, she confirmed that she did not sign Smith’s “Request to Engage in
Outside Work or Activity” form, and thus his work was “neither approved nor disapproved.” She
explained that her missing signature on the form indicated that her office did not have enough
information to approve the request. Smith’s attachment to the form did not identify the names of the
clients with whom he would be working. She noted that based on her previous discussions with Smith
relative to his work with Ageiss, Smith knew she needed to know the names of the Geomatrix clients
before she could approve the work.

A review of Smith’s MMS ethics file identified a March 2003 e-mail string between Seidel and Smith
in which Seidel asked if Smith had renewed his employment arrangement with Geomatrix. In this e-
mail, Seidel noted that Smith’s original “Request to Engage in Outside Work or Activity” form for
Geomatrix was dated January 4, 2002, and that he had indicated on the request that his employment
would be for only 1 year.

In his e-mail response, Smith wrote that he had not yet renewed the agreement but planned to do so. In
her response, Seidel asked Smith if there would be any changes to the previously submitted form, and
she wrote that she might ask Smith’s second-line supervisor, Lucy Querques Denett, Director, MRM,
for her concurrence, which Seidel wrote was a requirement “unless it is low level work.” The next day,
Smith responded by writing, “I do not think there will be any changes, and, as it will continue to be
pretty low level stuff, will not likely need to involve 2nd level signature.”

Agent’s Note: Smith may have intentionally downplayed the nature of his work with Geomatrix in this
e-mail because he did not want Seidel discussing his work with Denett. Smith was apparently successful
because when we interviewed Denett, she stated that she was not aware of Smith’s employment by
Geomatrix and that no one discussed it with her.

When interviewed and questioned about the 14-month time period between when Dial signed the form
in January 2002 and when Seidel sent Smith the March 2003 e-mail, Seidel said she and Smith “had a
certain understanding about the type of work that he was going to engage in.” This understanding,
Seidel explained, was based on his previous outside employment with Ageiss. She said there was
“never any misunderstanding about the fact that there were limitations and restrictions on what he
could and could not do. I thought that was pretty clear.” Seidel also noted that the MMS Ethics Office
was overwhelmed with work and therefore the review process sometimes took longer than it should
have. Seidel stated that at some point during this time period, she and Smith discussed the outside
employment request by telephone. It was during this discussion that Smith informed Seidel he was no
longer working for Geomatrix.


                                                    5
When we interviewed Smith, we showed him the “Request to Engage in Outside Work or Activity”
form, and he identified it as being the one he submitted to Dial in January 2002 in connection with his
outside work with Geomatrix. Smith identified the signature on the first page as his own and said he
had signed the front page and prepared the attached two pages.

Smith explained that after completing the form, he gave it to Dial for approval. After Dial approved it,
Smith said an unknown person forwarded the form to Seidel. Subsequently, Smith said he and Seidel
spoke by telephone, at which time Seidel told him she had no objections to his outside work and that
she would approve the form. According to Smith, he put “a lot of time into [the form and attachment]
to make it clear” and that if for some reason the form was not clear, this was unintentional. Smith said
he purposely wrote the description of the work he would be doing for Geomatrix in an overly broad
way such that if his duties at Geomatrix changed, he would not have to submit a new form.

We showed Smith the March 2003 e-mail messages between him and Seidel. After reviewing them,
Smith identified them as e-mails concerning the renewal of the approval for his Geomatrix work. Smith
also stated that his March 5, 2003 e-mail to Seidel was accurate and that his work with Geomatrix had
not changed from the date of his original request.

Agent’s Note: Smith stated that he purposely wrote the description of his Geomatrix work in an overly
broad way in case his duties at Geomatrix were to change; however, there is no evidence to suggest
that Geomatrix ever intended for Smith to do anything but marketing and client development. All of the
Geomatrix employees interviewed, including Daus, stated that Smith was hired solely to market
Geomatrix in the oil and gas world. In addition, Smith stated that he and Daus anticipated that his
Geomatrix employment would be short term, which further suggests that it was unlikely that Smith’s
duties would change.

                                  Payments to Smith by Geomatrix

We interviewed James Price, Chief Financial Officer and Risk Management Officer, Geomatrix, who
stated that Smith was paid at the rate of $75 per hour and submitted requests for payment on a monthly
basis. Price explained that Smith did not use a timesheet but instead would send an e-mail to Daus
describing the work he performed during the preceding month. He said Daus would then forward
Smith’s e-mail to him (Price), which meant Daus approved the work and payment request. As Chief
Financial Officer, Price said he would ensure the Geomatrix Controller would issue a payment check to
Smith based on the e-mail invoice. Price stated that after the payment checks were prepared, they were
mailed to Smith in Colorado.

We interviewed a Payroll Coordinator and Accounts Payable Specialist at Geomatrix, who stated that
he was responsible for preparing and issuing payment checks to Smith. The Payroll Coordinator and
Accounts Payable Specialist noted that these payment checks, along with IRS Form 1099s, were mailed
from the Geomatrix office in Oakland to Smith’s residence in Colorado.

A review of payments made to Smith by Geomatrix disclosed that he worked a total of 401 hours
between April 2002 and June 2003 and was paid $30,075, as follows:




                                                   6
                                   Work Month        Hours Amount

                                  April 2002             32   $ 2,400
                                  May 2002              28    $ 2,100
                                  June 2002             32    $ 2,400
                                  July 2002              24   $ 1,800
                                  August 2002           30    $ 2,250
                                  September 2002        16    $ 1,200
                                  October 2002           26   $ 1,950
                                  November 2002         15    $ 1,125
                                  December 2002         12    $ 900
                                  January 2003          32    $ 2,400
                                  February 2003         32    $ 2,400
                                  March 2003            26    $ 1,950
                                  April 2003             32   $ 2,400
                                  May 2003              32    $ 2,400
                                  June 2003             32    $ 2,400
                                  Total:                401   $30,075


When interviewed, Smith stated that to the best of his knowledge, the only way he submitted invoices to
Geomatrix was by e-mail.

A review of Smith’s MMS e-mail messages identified one of these e-mail invoices. It is dated June 8,
2003, and was sent from Smith’s personal e-mail account to Daus. Smith forwarded a copy of it to his
MMS e-mail account. The invoice reported the number of hours he worked for the month of May 2003
and the total cost of his work, and it then described the work he had performed that month. Smith wrote
that he had contact with Marathon Oil Company, Forest Oil, Amerada Hess, Burlington Resources,
GulfTerra, Apache, Enbridge, Koch, CMS, and Millennium.

                                 Smith’s Financial Disclosure Forms

A review of the “Confidential Financial Disclosure Report” (Form OGE-450) form signed by Smith on
October 25, 2002, disclosed that he reported Geomatrix as a source of income during that reporting
period. On this form, Smith reported that he held an “associate” position with Geomatrix. A review of
the “Confidential Financial Disclosure Report” signed by Smith on October 23, 2003, disclosed that he
similarly reported Geomatrix as a source of income for this reporting period. On this form, Smith
reported that he held a “consultant” position with Geomatrix.

                                        Smith’s Ethics Training

A review of Smith’s MMS ethics file disclosed that he received ethics training on an annual basis
between 2001 and 2006.

When we interviewed Seidel, we asked her if it would have been appropriate for Smith to market
Geomatrix to oil and gas companies. Seidel replied, “No, of course not. It wouldn’t be appropriate.” She
added, “In no circumstances would it be appropriate for a manager in particular or any employee to hawk
their outside firm to any of the people that we regulated or did business with or who were seeking
business from us.”

                                                    7
When asked, based on her experience and interactions with Smith, if she believed he was familiar with
the ethics rules and requirements, Seidel said, “Oh, definitely.” She described Smith as a “pretty bright
guy” who was “not uneducated” when it came to ethics issues.

A review of Smith’s MMS computer disclosed that October 5, 2001, only one month before he met
Tony Daus and began discussions concerning employment with Geomatrix, Smith wrote an e-mail to
RIK staff members that stated the following:

       During this season of filing our annual financial disclosure reports and reviewing
       our ethics guidelines, it is important for us in the RIK Office to pay especially
       close attention to the Federal ethics guidelines and to always keep them in mind in
       conducting our everyday business … please pay close attention to the Ethics
       Guide distributed to all of you as it gives us a great and official template for our
       actions in this regard ….

When we interviewed Smith, he stated that he recalled attending ethics training, and he recalled
discussions at this training concerning appearance issues and conflicts of interest.

                                     Smith’s Work for Geomatrix

Record reviews and interviews with industry personnel disclosed that in connection with his marketing
work for Geomatrix, Smith communicated with numerous oil and gas firms between April 2002 and
June 2003. Smith’s interaction with these companies took place by telephone and through face-to-face
meetings. In many instances, evidence shows that Smith used his position with RIK to gain access to
the prospective customer, as demonstrated in the following four examples involving Enterprise
Products Company (Enterprise), El Paso Corporation (El Paso), Millennium Midstream Partners
(Millennium), and Enbridge Energy Company, Inc., (Enbridge). Enterprise and El Paso were engaged
in business activities with RIK, and each potentially needed the kind of services offered by Geomatrix.
The evidence also shows that while discussing RIK matters with Millennium, a new company that was
not involved in RIK, Smith made a decision in his role as RIK Deputy Program Manager that impacted
Geomatrix.

1. Enterprise

We interviewed a former Geomatrix employee, who stated that Smith arranged for a meeting with four
Enterprise representatives that was held on October 31, 2002, at a hotel in Houston, TX. According to
the former Geomatrix employee, Smith told him he was able to arrange the meeting because he had
contacts with officials at Enterprise through his work with RIK. During the meeting, the Geomatrix
employee talked about Geomatrix and its skills and areas of expertise, and the Enterprise
representatives talked about their potential areas of interest. At the conclusion of the meeting, they
agreed that a Master Services Agreement would be prepared and used as the basis for any work that
Geomatrix would conduct for Enterprise. Over the next several months, the Master Services
Agreement was developed and finalized.

The former Geomatrix employee also stated that it was his impression that some of the meetings Smith
arranged took place solely because of Smith’s relationship with MMS and that once Smith was no
longer employed by Geomatrix, the interest originally expressed by some prospective clients stopped.



                                                    8
 Agent’s Note: The Geomatrix employee’s comment is consistent with statements made by many of the
prospective clients we interviewed, who said they only agreed to meet with Smith and Geomatrix as a
favor for Smith because Smith, through MMS, was their customer.

When interviewed, Paul Johnson, Business Commercial Director, Enterprise, corroborated the former
Geomatrix employee’s recollection of this meeting and stated that he knew Smith because Johnson
managed a number of gas plants for Enterprise that sometimes processed RIK gas. In addition to
managing these plants, Johnson said he helped prepare and submit bids on RIK gas volumes. Johnson
said he understood that Smith managed RIK and thus supervised all of the RIK personnel with whom
Johnson interacted. Johnson said he also understood that Smith was a member of the committee at RIK
that evaluated and selected bids.

Johnson stated that at one point, Smith contacted him and asked if he (Johnson) could arrange a
meeting between Enterprise representatives and Geomatrix representatives. Johnson said he agreed to
schedule the meeting, and during the meeting, the Geomatrix representatives passed out a brochure and
talked in detail about the services they could provide. He said Smith also attended the meeting. When
we asked Johnson if he would have facilitated the meeting with Geomatrix if Smith did not work for
MMS, he stated that he usually did not accept “cold calls” from people he did not know.

Johnson said Smith did not discuss RIK business with him in the same context as their discussions
involving Geomatrix. According to Johnson, Smith also did not in any way link RIK and Geomatrix
activities. Johnson stated that he had an Enterprise attorney attend the meeting to make sure Smith did
not say or do anything that was “improper” by linking RIK and Geomatrix.

According to the former Geomatrix employee, in September 2003, he visited one of the Enterprise
representatives to discuss Geomatrix again. By this point, Smith was no longer employed by
Geomatrix. The Geomatrix employee recalled that during this particular meeting, the Enterprise
official “acted like he had never seen me or heard of me.” He said this reception was not nearly as
warm as the one he had received during the first Enterprise meeting with Smith. He recalled that at the
time of the first meeting all of the Enterprise representatives shook Smith’s hand and acted like they
were happy to see him. He stated that the September 2003 meeting was “very brief” due to Enterprise’s
disinterest.

The former Geomatrix employee said the distinct difference between the first and second meetings with
Enterprise confirmed his concerns about using Smith’s MMS influence to generate business for
Geomatrix. He stated that once Enterprise knew that Smith was no longer affiliated with Geomatrix,
they had no interest in dealing with Geomatrix.

Similarly, the former Geomatrix employee said Daus and Smith once met with a representative of another
oil and gas company. He stated that after this meeting, he was told by either Daus or Smith that the meeting
went well and that the company had ongoing projects on which Geomatrix could perform work. Sometime
thereafter, when the Geomatrix employee contacted the company to schedule a follow-up meeting, he
received “a relatively stern rejection.” He said this was another instance where once Smith was removed
from the picture, companies that had originally expressed an interest in Geomatrix suddenly had no such
interest.




                                                     9
2. El Paso

Smith also engaged in discussions regarding Geomatrix with an employee who at the time worked for
El Paso. A review of this employee’s resume disclosed that in connection with his duties at El Paso, he
represented the company on various MMS matters, including RIK.

A review of Smith’s MMS e-mails disclosed that on May 29, 2002, the El Paso employee e-mailed
Smith and wrote:

       Again we look forward to doing business with you and the RIK program. I believe with
       closer examination … you will find that the deals along with our facilities are very
       attractive. Adding this to the strong difference in credit ratings that currently exist the
       MMS would be in very good hands with the El Paso family of companies.

In a response 2 days later, Smith used this very same e-mail in which MMS business was discussed to
market Geomatrix. Specifically, Smith wrote, “[W]e really appreciate our business with El Paso Field
Services …” and added that Geomatrix had “a good track record with El Paso (on health and safety
issues) and a good relationship with their contacts there.” Smith also wrote that he wanted to “facilitate
an expansion of business and would hope that [Geomatrix] could be considered for any of your
upcoming project [sic] … or ongoing compliance…. [Geomatrix has] my highest endorsement.” Smith
then asked, “what would you suggest to push things along?”

Agent’s Note: In 2005, Smith selected the El Paso employee to manage RIK’s “Gas Front Office” in
Houston, and as a result he became an MMS employee. During a technical surveillance of Smith that
agents conducted in early 2007, Smith and the Manager of RIK’s Gas Front Office met for drinks for
approximately 2 ½ hours one evening. During this meeting, Smith and the Manager discussed the
ongoing OIG investigation. The Manager ultimately declined to be interviewed by the OIG, stating
that he had retained counsel. He resigned from MMS in July 2007.

We interviewed James Lytal, formerly of El Paso, who stated that he first met Smith in approximately
2001, when several of Smith’s employees were working with several of his employees on
transportation and processing deals with RIK. Lytal subsequently participated in several high-level
meetings with Smith where they discussed additional RIK opportunities for El Paso.

Lytal recalled that Smith discussed Geomatrix with him at one point and asked him to arrange a
meeting between Geomatrix and El Paso. Lytal said the meeting did take place, but Lytal did not
attend. Lytal recalled that Smith had stated Geomatrix was operated by his friends. He did not recall
Smith stating that he was an employee of Geomatrix.

Lytal explained that he viewed MMS as an El Paso customer given that El Paso already had an existing
contract with RIK and was negotiating additional ones. Lytal said MMS had options as to where it
could send its RIK gas volumes for processing, and El Paso was competing with other processors for
those volumes and therefore the business of MMS. Because RIK, and Smith as its representative, was a
customer of El Paso, Lytal said he agreed to help facilitate the meeting with Geomatrix that Smith
requested. “I looked at him as a customer, and he asked,” Lytal said.

We interviewed Bart Heijermans, who stated that in 2002 and 2003, he was the vice president for
Offshore for GulfTerra, an El Paso affiliate. During this period, he said he was also president of
Poseidon, an oil pipeline company operated by GulfTerra. Heijermans said Poseidon pipelines were


                                                   10
used to transport RIK products, and as a result, he was introduced to Smith. Heijermans estimated that
he and Smith participated in “a handful” of “high level” meetings.

Heijermans recalled that at one point, Smith brought up Geomatrix. Heijermans said that because
MMS was a customer of Poseidon’s and was involved in other El Paso activities, he agreed to entertain
Smith’s desire to discuss Geomatrix. Heijermans said there was no “obvious value” for Poseidon in
Geomatrix, but he agreed to meet as a courtesy to Smith and as a way to maintain a “relationship with a
customer.” During the discussion, he said Smith was “pushing” and “trying to sell” Geomatrix. He
said Smith never told him that he worked for Geomatrix. Heijermans said it was possible that he and
Smith discussed both RIK business and Geomatrix issues during the same meeting but that Smith never
attempted to link or connect the two issues.

3. Millennium Midstream Partners

We interviewed Kevin Coxon, a Manager at Millennium, who stated that he first met Smith while
working for Dynegy Midstream Services (Dynegy), a natural gas marketing company that purchased RIK
gas.

Coxon explained that in mid-2003, while working for Millennium, he was planning to construct a gas
processing facility on a pipeline near Toca, LA. At that time, he said there was only one processing
plant on the pipeline, and his proposed plant would compete with the existing one and give producers
more than one option for processing their gas.

He stated that he spoke to a number of producers at that time and asked them if they would be
interested in the construction of this additional plant. Given that RIK was a big producer, he said he
asked Smith if he and RIK would be in support of the construction of this plant. Coxon stated that in
response, Smith said RIK would be. “[Smith] being one of the big producers, he said yes.”

Because the producers he talked to, including Smith, were in favor of this new plant, Coxon said he
decided to move forward with the project. In order to move forward, though, he said he needed
environmental work to be performed in order to comply with Louisiana regulations.

Coxon could not recall if he had mentioned the need for this work to Smith or if Smith had mentioned
that he knew of an environmental firm that could perform the work. Either way, he said Geomatrix
came up in his discussions with Smith, thus Coxon got in touch with Geomatrix. He stated that the
only way he ever would have found Geomatrix was through Smith. He also stated that Smith never told
him that he worked for Geomatrix as a consultant or was otherwise affiliated with the company.

Coxon said Millennium never formally commissioned Geomatrix to perform any work and never paid
the company for services. Instead, he said Geomatrix provided Millennium with guidance on three
separate projects on which he was working and provided several proposals. He stated that none of these
projects, including the gas processing plant near Toca, LA, ever reached the point where any kind of
agreement was executed with Geomatrix. However, he noted that had the projects moved forward, he
would have continued to use Geomatrix for any needed work.

4. Enbridge

We interviewed Steve Marsh of Enbridge, who stated that he met Smith while working at Dynegy,
where Marsh was “heavily” involved with RIK. After Marsh moved to Enbridge, he said Smith
contacted him about Geomatrix. Marsh said he understood that Geomatrix was operated by

                                                   11
“acquaintances or friends” of Smith and that Smith was trying to help them get their company
“jumpstarted” by finding them work. Marsh said he found it “a bit curious” that Smith would be
promoting a privately held company while he was talking to Enbridge about RIK business. “Talking to
us about the MMS royalty in kind stuff, and then dropping this other company’s name in there, I
thought it was a bit strange,” Marsh said. Marsh referred Smith to Fred Whitted, another Enbridge
employee.

We interviewed Whitted, who confirmed that he met with Smith at some point to discuss Geomatrix.
During their discussion, Whitted said, Smith told him that it was not a problem for Smith to represent
Geomatrix while simultaneously working for MMS. According to Whitted, Smith said he “did this
with a lot of different companies.”

Smith stated that it “didn’t seem important” to him to tell prospective Geomatrix clients that he was
employed as a consultant for Geomatrix. He also said this topic was not an issue he would purposely
either bring up or not bring up during his discussions with prospective clients. Smith said, “I wouldn’t
lie, but I don’t know if I led with it.” He further stated that if discussions concerning potential projects
for Geomatrix went beyond the introductory stage between him and the prospective client, he would
step out of the process.

                                   Geomatrix Work: Non-Marketing

When interviewed, Smith recalled two specific written products that he provided to Geomatrix, and he
offered these as examples of the types of non-marketing work he performed for Geomatrix. The first
was a document describing the National Environmental Policy Act (NEPA) process that he prepared at
the request of Daus. This document describes the policies and procedures that had to be followed to
comply with NEPA. Second, Smith said he worked on the Geomatrix Statement of Qualifications,
which Geomatrix provided to prospective clients.

When we interviewed Daus, he had no recollection of Smith ever preparing such a NEPA document.
Daus recalled that when he and Smith were engaged in employment discussions in late 2001 and early
2002, Smith said he had expertise in NEPA matters. In response, Daus said he told Smith that
Geomatrix did very little work involving NEPA and therefore did not need such expertise. Further,
Daus said he did not view Smith as a person who was going to provide technical support to Geomatrix
and instead explained that Smith was an “entrée” to prospective oil and gas clients.

With respect to any documents that Smith did provide to Geomatrix, Daus recalled two: one that Smith
actually prepared and one that Smith simply provided to Geomatrix. He said both of these documents
concerned MMS.

Daus explained that Smith prepared a document describing the MMS permitting process for offshore
operations. Daus said he wanted this information in order to understand how and where Geomatrix
might be able to provide services to companies who were involved in obtaining permits from MMS.
Daus said he thought that if Geomatrix understood the permitting process, it could determine where its
services might be applicable and how they could work with companies in that area.

We confirmed Daus’s recollection after reviewing Smith’s MMS e-mails, which identified a September
25, 2003 e-mail from Smith to Daus in which Smith described this permitting process.

Daus said the document Smith provided was a copy of a quarterly report that MMS issued on current
events in the oil and gas industry. Daus said this document described events happening in the “MMS

                                                     12
world.” He said he did not know if this was an internal MMS document or a document that was
publicly available.

Agent’s Note: Follow-up with MMS disclosed that the agency does generate a quarterly statistical
report that is not for public dissemination. The report contains information on the number of wells
drilled, the number of offshore inspections conducted, the number of drilling permits issued, etc. We
have not been able to substantiate that this was the report Smith provided to Daus.

With respect to Smith’s work on the Geomatrix Statement of Qualifications, Daus confirmed that Smith
did play a limited role in the revision of an existing Statement of Qualifications.

                                   Smith’s Use of MMS Resources

By signing his “Request to Engage in Outside Work or Activity” form, Smith certified that his work
with Geomatrix would “not pose a real or apparent conflict of interest” with his regular duties and that
he would perform the work “only in a nonduty status, without use of government facilities, equipment
supplies, or official information which is not available to the public ….”

The information developed by the investigation is in direct contrast to Smith’s written certification. In
fact, Smith performed Geomatrix work while on duty status, using both government staff and
equipment and official information. Specifically, and as described previously and below, he used an
MMS database, the services of an MMS employee, the MMS Federal Express account, his MMS e-mail
account, and MMS telephones in furtherance of his work for Geomatrix.

Smith used his personal e-mail address to communicate with Daus and others concerning his Geomatrix
work. However, he also used his MMS e-mail account to communicate with individuals concerning
Geomatrix.

A review of telephone records identified the following outgoing calls placed from the MRM offices in
Denver to Geomatrix offices and personnel between September 2002 and April 2003:

              Calls                         Call Recipient
               18          Geomatrix Office in Houston, TX
               10          [Exemption 7C] Geomatrix Employee
               1           [Exemption 7C] Geomatrix Employee
               6           [Exemption 7C] Geomatrix Employee
               5           Geomatrix Office in Oakland, CA
               14          Geomatrix Office in Newport Beach, CA

Agent’s Note: The specific phone number from which these calls originated cannot be determined
from MRM’s records, but it is likely that Smith was the only MRM employee with reason to telephone
Geomatrix. In addition, we did not analyze calls made to the oil and gas companies to which Smith
marketed Geomatrix given that such an analysis could not determine if the call concerned Geomatrix
business, RIK business, or both.

A review of Smith’s MMS travel reimbursement vouchers disclosed that Smith happened to be in
Houston on October 31, 2002, at MMS’s expense at the same time he attended the Geomatrix meeting
with the Geomatrix employee and Enterprise. We did not find any information revealing that the sole
purpose of this or any other MMS-funded trip taken by Smith was to conduct Geomatrix business.
Conversely, we found no information identifying the specific MMS work that Smith conducted on
                                                   13
these trips. Our review of Smith’s travel vouchers disclosed that he traveled under a blanket travel
authorization that described the purpose of each trip as being “To conduct government business with
MMS personnel, DOI officials, other Federal agencies, State and local governments, and private
organizations in the pursuit of MMS functions.”

When we interviewed Daus, he said Smith’s Consulting Agreement provided for Smith to be
reimbursed by Geomatrix for authorized expenses. Daus did not recall ever approving any expense
reimbursement requests for Smith.

When we interviewed Jim Price, Chief Financial Officer, Geomatrix, he confirmed that Smith never
submitted any such requests for reimbursement. Price said that as Chief Financial Officer, he would
have been in a position to see these requests.

Our investigation disclosed that Smith employed a similar strategy of linking MMS and outside
employment travel while working for Ageiss. For example, an April 13, 2001 Ageiss “Trip Report”
found on Smith’s MMS computer disclosed that between April 3 and 5, 2001, Smith visited Dynegy
Field Services, Williams Energy Services, ExxonMobil, and Texaco. According to the memorandum,
the purpose of these visits was to discuss the potential services that Ageiss could provide to these
companies. According to the memo, “On most trips to Houston, Mr. Smith attempts contact with at
least two companies in this context.” The review of Smith’s MMS travel vouchers disclosed that he
was in Houston, purportedly on MMS business, from April 3 and 5, 2001.

Notably, this same memorandum states, “The specific avenue of entry to these companies has been and
continues to be access by Mr. Smith at reasonably high levels. The nature of the discussions is to
continue to explore specific opportunities, establish relationships, and identify specific contacts within
the companies for specific types of opportunities.”

When interviewed, Smith confirmed that he never submitted a travel reimbursement or expense
voucher to Geomatrix. He also stated that he never took any MMS trip for the sole purpose of
conducting Geomatrix business and that the “overwhelming majority” of his work while on travel was
spent on RIK business. According to Smith, any work he performed for Geomatrix was brief and done
over lunch or during evening hours. Smith said he conducted “no more than two” Geomatrix meetings
during normal RIK working hours.

                                    Smith’s Use of MMS Database

MMS is required by law to conduct inspections of offshore oil and gas platforms in the Gulf and
elsewhere. During these inspections, equipment and operations on the platform are examined to
identify potential safety or regulatory violations. If a violation is detected, the MMS inspector issues an
Incident of Non-Compliance, or written citation, to the operator. If the violation is not severe or
threatening, a warning Incident of Non-Compliance is issued, and the violation must be corrected by
the operator within a certain time period. If the violation is severe, a “shut-in” Incident of Non-
Compliance may be issued, which requires the operator to stop using the piece of equipment with
which the violation is associated.

When we interviewed the former Geomatrix employee, he stated that Smith “generated and delivered a
database” to Geomatrix that showed the results of offshore inspections conducted by MMS. He said
Geomatrix used this information to identify companies that would most likely have a need for outside
consulting services.


                                                    14
We interviewed another former Geomatrix employee, who confirmed that he received a database
containing MMS information from Smith. Given his background in the oil and gas industry, he
recalled being “surprised” that Geomatrix was able to obtain any information from MMS concerning
inspections and Incidents of Non-Compliance.

We interviewed Tim Powers, Acting Deputy Regional Director, Gulf of Mexico Region, MMS, who
stated that MMS maintained and operated the Technical Information Management System (TIMS)
database, which contained various types of information gathered by MMS, including information on
Incidents of Non-Compliance. He said that whenever an employee logged on to TIMS, he or she was
shown a warning banner that stated, “This system contains data which is PROPRIETARY or for
GOVERNMENT USE ONLY.” A query of TIMS conducted by Powers and his staff disclosed no
information indicating that Smith had ever accessed the database.

We interviewed an Oil and Gas Analyst, RIK, who recalled that in December 2002 or early 2003,
Smith asked him to run TIMS reports that focused on companies with Incidents of Non-Compliance.
He said Smith did not tell him why he needed the reports. The Oil and Gas Analyst said Smith did not
know how to access TIMS or run reports from the database. After reviewing historical TIMS access
logs, the Analyst said he was “positive” that he provided these reports to Smith and that he accessed the
section of TIMS that contained these reports 47 times on behalf of Smith between December 1, 2002,
and February 28, 2003. The Analyst said running TIMS reports was a slow, “painful” process and
estimated that he spent a few days developing the reports for Smith.

We interviewed two Management Analysts, Freedom of Information Act (FOIA) Office, MMS, New
Orleans, who stated that they were responsible for responding to FOIA requests. The Management
Analysts both stated that there were nine exemptions to the FOIA that applied to MMS, and if a
requested document or item did not fall into one of these nine exemptions, by law it had to be released
to the requestor. Although this data was not published on the MMS Web site, they said information
concerning Incidents of Non-Compliance was not considered to be confidential business information
and did not fall into the trade secrets or commercial or financial information exemption and was
therefore releasable under FOIA.

We advised the FOIA Management Analysts that some data maintained in TIMS was marked as being
“PROPRIETARY.” In response, both Management Analysts agreed that “Proprietary” was not a term
or classification that they considered when determining if a piece of information was releasable under
the FOIA.

When we interviewed Smith, he confirmed that he had obtained Incident of Non-Compliance
information from an MMS database and provided it in the form of a report to Geomatrix. Smith stated
that while he was certain that all of the data used to compile the report was “completely and totally”
public through the MMS Web site, he did not know if the report itself was publicly available. Agent’s
Note: This information was not available through the MMS Web site. According to Smith, he obtained
this data from an MMS employee in New Orleans. Smith said he did not know if he did or did not
advise the MMS employee that the information he was asking him to obtain was for Smith’s outside
employment and not for official MMS business. Smith said he personally did not possess the technical
skills to retrieve and process information in the MMS database and therefore had to ask someone to
obtain it for him.

We interviewed the MMS employee, and he stated that he did not recall Smith ever asking him for
TIMS data or INC-related data.


                                                   15
Agent’s Note: We believe that Smith obtained the information from an RIK Oil and Gas Analyst and
was mistaken in his recollection that he obtained it from another MMS employee.

                          Termination of Smith’s Geomatrix Employment

When interviewed, Daus stated that in April 2003, he and Smith met in Denver to discuss the fact that
Smith’s work had not resulted in any business for Geomatrix, and he therefore intended to end their
association. Daus said Smith agreed and their relationship ended in July 2003.

When we interviewed Smith, he stated that his job as a consultant for Geomatrix was to identify
potential customers and alert them to the fact that Geomatrix might be able to provide services that
would assist them. “I was doing referral work,” Smith said. Smith also explained that if discussions
went beyond the introductory stage, he would step out and recuse himself from the process.

According to Smith, there was “never any linkage” between his work for MMS and his work for
Geomatrix. He stated that he made it clear up front to the prospective Geomatrix clients with whom he
met that there was no such link, connection, or relationship. He also stated that he felt that making
“introductions” for Geomatrix was “not in any way, shape, or form” related to his RIK work.

                                       Lukens Energy Group

According to its Web site, Lukens Energy Group (Lukens) is “a management consulting company advising
top management in the energy industry on issues of strategy, markets, regulation, valuation and risk
management.” Fred Hagemeyer was a Vice President of Lukens while Smith worked for Geomatrix.

When we interviewed Smith, he stated that he viewed Hagemeyer as a “trusted advisor,” mainly because
Hagemeyer helped RIK become established. When RIK was formed, Smith noted, no one working there
had any experience or training in energy sales. RIK relied on Hagemeyer to provide advice and input on
how to successfully operate the program.

Agent’s Note: In February 2007, the OIG initiated an investigation into allegations that RIK had been
improperly influenced by high-level DOI officials in connection with the award of a contract for the
assessment of the RIK Program to Lukens. That investigation was unable to corroborate the allegations.

We interviewed Wally Adcox, senior MMS Procurement Official and former MMS Contracting Officer,
who stated that MMS initiated the process to award a contract for an independent assessment of the RIK
Program. A number of companies bid on the contract, including Lukens, and members of the Technical
Proposal Evaluation Committee (TPEC) evaluated these bids. Adcox identified the TPEC members, all of
whom were MMS employees, as the following individuals:

               •   Bob Brown
               •   [Exemption 7C]
               •   Milton Dial
               •   [Exemption 7C]
               •   Lucy Querques Denett

According to Adcox, Smith was not a member of the TPEC but was included on most of the
communications concerning the contract because as an RIK manager, Smith would have to work with the
contractor that was selected.

                                                   16
Our review of e-mail from Adcox confirmed that Smith attended the oral presentations made by the three
final bidders, including Lukens. These presentations were made at the MMS office in Herndon, VA, on
December 17 and 18, 2002.

We interviewed a former MMS Contracting Officer, who stated that he served as the contract administrator
and later contracting officer on this contract with Lukens. According to him, most of the hand-written notes
in the contract file were his, including one titled, “RIK Orals,” which listed the following five individuals as
attending the oral presentations:

                •   Bob Brown
                •   [Exemption 7C]
                •   Milton Dial
                •   [Exemption 7C]
                •   Greg Smith

The former MMS Contracting Officer stated that during any MMS contract selection process, there
should be no contact between the bidding company and any MMS representative other than the
contracting officer.

When we interviewed Milton Dial, he stated that Smith was a technical advisor for the contract and had
input in the selection process that was equal to the TPEC members.

According to Adcox, in January 2003, the RIK assessment contract, valued at approximately $500,000,
was awarded to Lukens.

Our investigation disclosed that Smith and Hagemeyer communicated extensively before, during, and
after this contract was awarded to Lukens. It also disclosed that during this very same time period,
Hagemeyer worked with Smith to market Geomatrix.

For example, on November 21, 2002, Hagemeyer sent an e-mail to Smith concerning the contract to be
awarded. Attached to this was an electronic version of Lukens’ “Capabilities Statement.”

On December 11, 2002, only one week before oral presentations, Hagemeyer sent Smith a copy of
Lukens’ proposal. In this same e-mail string, Smith advised Hagemeyer that he would be in Houston
on December 12, 2002, and asked if Hagemeyer would be around. In response, Hagemeyer wrote that
he would, and he asked Smith to call him.

A review of Smith’s travel vouchers disclosed that he was in Houston on December 12 and 13, 2002,
but we could not substantiate whether he met with Hagemeyer.

In an April 14, 2003 e-mail to Smith, Hagemeyer wrote that the American Petroleum Institute taskforce
had been formed. He also wrote, “If OK with you, I will also plant the seed about Geomatrix as the
preferred Env [sic] firm.”

Our e-mail review also identified a May 5, 2003 e-mail from an attorney with the firm of Fulbright and
Jaworski, LLP, in Washington, D.C., to Hagemeyer asking if Hagemeyer knew anyone who could
provide expert testimony in an environmental matter. In response, Hagemeyer wrote, “As a suggestion,
Geomatrix is an environmental consulting firm that may be worth considering.” He then provided the
Fulbright and Jaworski Attorney with Smith’s telephone number. Hagemeyer forwarded this e-mail to
Smith the next day.
                                                      17
The following day, Smith sent an e-mail to Daus in which he wrote that he had just talked to the
Attorney from Fulbright and Jaworski, and as a result, the Attorney was expecting an e-mail from
Geomatrix concerning its capabilities. Smith also wrote that “based on recommendations” from
Hagemeyer, the Attorney “is favorably disposed towards geomatrix [sic].”

Agent’s Note: We did not find any evidence indicating that Geomatrix received any work as a result of
this referral.

When we interviewed a Geomatrix employee, he said he met with Smith in Denver in early March
2003 to discuss his potential role in the marketing work that Smith was performing for Geomatrix. In a
March 5, 2003 memorandum to Daus, the Geomatrix employee wrote that during his meeting with
Smith, he provided an overview of his marketing efforts. He also discussed a recent relationship that
had been established between Geomatrix and Lukens where Lukens and Geomatrix were going to
jointly assist oil and gas companies operating in Wyoming.

We interviewed Hagemeyer, who stated that he first met Smith in approximately 1996 or 1997 at an
event involving MMS, and they subsequently became better acquainted.

Hagemeyer said he first learned about Geomatrix through Smith, and he understood from his
discussions with Smith that Smith was assisting Geomatrix in the area of business development.
Specifically, Hagemeyer said he understood Smith was to introduce Geomatrix to sectors of the oil and
gas industry to which Geomatrix would not otherwise have access.

With respect to his efforts in assisting Smith’s marketing of Geomatrix, Hagemeyer explained that
consulting firms frequently tried to align themselves with each other in an attempt to further business
opportunities for both. Hagemeyer stated that he made referrals to firms like Geomatrix as he was able
and hoped that others would similarly make referrals involving Lukens.

Hagemeyer recalled making an oral presentation to MMS officials in approximately December 2002 in
connection with Lukens’ successful bid to win the RIK consulting contract. Hagemeyer did not recall
if Smith was a member of the selection team, although he said he “could have been.” Hagemeyer
similarly did not recall if he met with Smith in Houston 1 week prior to the presentation. If they had
met, he said they could have discussed the upcoming contract. Hagemeyer also could not recall if
Smith helped him prepare any portion of the presentation he gave to MMS. He denied that there was
any relationship between the assistance he provided to Smith regarding Geomatrix and Smith’s role in
the MMS contract award process.

When interviewed, Smith confirmed that he participated in the process through which Lukens was
awarded the RIK consulting contract, although he said he had “very little influence” over the selection
process. Smith denied that there was any relationship between his contacts with Hagemeyer prior to
and during the selection process and any decisions or input he may have made or provided as a member
of the group hearing oral proposals. Like Hagemeyer, Smith was not able to recall anything about their
discussions prior to and during the selection process.




                                                  18
                                            Drugs and Sex

According to the CS, Smith engaged in sex and drug use with RIK subordinates.

When we interviewed a former Minerals Revenue Specialist, RIK, she said she knew that Smith and
some other RIK employees had “gone out on occasion after work.” The Minerals Revenue Specialist
also stated that she thought one of the RIK employees had once told her that she and Smith had sex.
She said the RIK employee told her that Smith had come to her house, at which time their sexual
encounter occurred.

When we interviewed the RIK employee, she stated that Smith often asked her for cocaine, and she
provided it to him three to four times per year between 2002 and 2005. The RIK employee stated that
either she or her boyfriend delivered the drugs directly to Smith at the MMS office, at a restaurant
located near the office, or at a restaurant in a nearby town. She stated that on several occasions, Smith
went to her house to pick up the cocaine. She said Smith purchased small amounts of the drug and she
usually sold it to him for $60. On one occasion, the RIK employee said Smith paid her for cocaine with
a personal check made out to her in the amount of $60.

The RIK employee said Smith once asked her for cocaine during the same time that the MMS
performance appraisals were due and told her that if she could provide it, he would increase her
performance award by $250. Although she could not recall if she provided the cocaine to Smith on
that occasion, she said he did increase her award amount by $250.

According to the RIK employee, on more than one occasion, Smith directed her to purchase cocaine for
him during normal MMS business hours, and Smith used the term “office supplies” when discussing
cocaine while at work.

Agent’s Note: The RIK employee recalled the incident involving her award increase in part because at
that time, she and another employee were both slated to receive awards of the same amount. The RIK
employee stated that while her own award was increased by Smith, the other employee’s award was
not. Our investigation confirmed that in August 2003, the RIK employee received a cash award that
was for $250 more than the other employee. However, we found no documentation showing that the
RIK employee’s award was increased.

The RIK employee recalled that on one occasion in late 2004, Smith telephoned her repeatedly asking
for drugs. She said she provided cocaine to him early that evening, but he continued to call her.
Eventually, she said, Smith traveled to her house and wanted her to have sex with him. She said he
also asked her if she had more cocaine, and she stated that she did not but that someone who was
staying with her might. She said Smith obtained crystal methamphetamine from one of these
individuals and she watched him snort it off the toaster oven in her kitchen. The RIK employee also
said she and Smith engaged in oral sex that evening.

A review of Smith’s MMS cellular telephone records corroborated the RIK employee’s statements.
These records show Smith calling this employee’s office and cellular telephone on the following dates
and times:




                                                   19
                    Date                Time       Phone          Number
               December 30, 2004      1:25 p.m.    Office      [Exemption 2]
               December 30, 2004      6:06 p.m.   Cellular    [Exemption 7C]
               December 30, 2004      6:28 p.m.   Cellular    [Exemption 7C]
               December 30, 2004      7:00 p.m.   Cellular    [Exemption 7C]
               December 31, 2004      2:11 a.m.   Cellular    [Exemption 7C]

Another RIK employee further corroborated the other RIK employee’s statements. When interviewed,
this RIK employee stated that in approximately October 2005, the other RIK employee told her that
Smith had stopped by her house once in search of sex.

We interviewed yet another RIK employee who stated that in approximately 2005, Smith “insisted”
that she ride in his car from one business establishment to another, and she agreed.

This employee stated that Smith took “the long way” between the two businesses, and during the drive,
he asked to go to her nearby home, but she refused. “He wanted to have sex; I said no,” she recalled.
Smith then asked if she would have oral sex with him, but she told him she did not want to. She said
Smith then “basically forced [her] head into his lap,” and she performed oral sex on him while he drove
the car slowly. She said she resisted Smith when he pulled her head into his lap, but Smith did not
relent and continued to pull her head down. She said Smith was “real persistent” but not violent, and
she did not feel as though she had been sexually assaulted by Smith. She stated that it was difficult for
her to have sex with Smith because he supervised her and RIK, but she “felt like [she] could get fired,”
so she did what Smith wanted. She said she was “scared” that if she did not do what Smith wanted her
to do, it could possibly affect her employment. She said this was the only time she had ever had sex
with Smith.

When interviewed, Smith confirmed that he and an RIK employee used cocaine together on
approximately four or five occasions over a multi-year period. He described his cocaine use as
“episodic.” He stated that to the best of his knowledge, cocaine was the only drug they had ever used.
On several of these occasions, Smith said he went to her house to obtain and use cocaine. On some
occasions, Smith claimed that he suggested that they use drugs, and on others the RIK employee
suggested it. He said he only purchased small amounts of cocaine from her, valued at between $20 and
$60. Smith denied that he directed this employee to obtain cocaine for him during business hours, and
he denied raising her performance award amount in exchange for cocaine. Smith did not recall writing
her a check for cocaine in the amount of $60 but said that he could think of no other reason that he
would have written a check to her.

Smith only admitted to having one sexual encounter with this RIK employee in approximately January
of 2003 or 2004. He said it occurred at her residence and involved “groping and touching” and oral
sex. Smith claimed that both he and the RIK employee had used cocaine that evening.

Agent’s Note: During his proffer, Smith stated that his sexual encounter with this employee occurred
only after she had tried to “sexually entrap” him for years. However, the evidence shows Smith
telephoned this employee repeatedly on the night of their sexual encounter, and it occurred after he
went to her residence, not when she went to his.




                                                   20
                                                   Gifts

A review of subpoenaed company employee expense reports disclosed that between April 2002 and
October 2006, on 16 occasions, Smith accepted golf outings, drinks, and meals valued at a total of
approximately $988.35 from eight different employees of Shell, Chevron, and Gary Williams Energy
Company (GWEC), as follows:

    Fiscal
            FY 2002     FY 2003               FY 2004         FY 2005         FY 2007           Total
    Year
  Company No. Amount No. Amount             No. Amount No. Amount No. Amount No.                 Amount
  Shell                1   $120.20           2   $76.96 1    $24.06           4                    $221.22
  Chevron                                    1   $16.76 1     $4.24            2                    $21.00
  GWEC     2   $141.43 3   $114.42           2 $344.09 2    $134.88 1  $11.31 10                   $746.13
  Total                                                                       16                   $988.35
  *No gifts in
  FY 2006


The Shell and Chevron charges included six occasions when meals and food items were purchased for
Smith in Houston; New Orleans; Scottsdale, AZ; and Denver. The GWEC charges included four golf
outings near Denver, as well as meals and other food items. Each of these three companies had a
business relationship with RIK and thus were considered “prohibited sources.”

By accepting the Shell gratuities in fiscal years 2003, 2004, and 2005, and by accepting the GWEC
gratuities in 2002, 2003, 2004, and 2005, Smith violated federal ethics regulations that prohibited accepting
items valued in excess of either $20 per occasion or $50 in total from one source in a given year.

We interviewed a GWEC Executive, who stated that a GWEC refinery obtained crude oil through RIK,
and Smith was one of his main contacts at MMS.

The GWEC Executive explained that GWEC held an annual customer appreciation golf tournament in
Colorado. He said GWEC paid all fees associated with attendance at the tournament, including all
golf-related fees as well as breakfast, lunch, and dinner. In addition, he said each participant received a
gift, such as a golf bag, luggage, a jacket, or sunglasses, as well as paid attendance at a local event, such
as a professional golf tournament or a Colorado Rockies’ baseball game.

According to the GWEC Executive, because GWEC considered MMS to be a customer, Smith had
been invited to this customer appreciation event. He said a review of his records indicated that Smith
attended the event in 2004 but did not accept the gift, which was luggage. He also said it was likely
that Smith attended the event in 2005 and accepted the gift, which was a golf bag.

A review of the “Confidential Financial Disclosure Report” (OGE 450) signed by Smith on October 29,
2004, covering the period October 1, 2003, through September 30, 2004, disclosed that Smith reported
receiving no gifts from one source totaling more than $285, excluding anything valued at $114 or less.
The total value of the two golf outings that Smith accepted from GWEC during this reporting period
was $344.09. The first outing was valued at $54.59, which was less than $114 and was therefore
properly excluded from his OGE 450. The total cost of the customer appreciation outing was $289.50.
According to GWEC, however, none of the individual components of this outing (the golf, the food, or
the event tickets) exceeded $114. The GWEC Executive stated that Smith did not accept the gift of
luggage, which was valued at $128.

                                                     21
Agent’s Note: A December 12, 2007 legal opinion issued by the OIG’s Office of General Counsel
concludes that a confidential financial disclosure form filer who received multiple benefits in
connection with his/her attendance at a single event must treat the entire package of benefits as a
single gift for the purpose of determining whether the gift meets the reporting thresholds of $114 and
$285. However, this opinion also points out that the form’s instructions in 2004, as well as relevant
regulatory examples at that time, did not provide clear guidance for the filer.

                                            False Statements

We interviewed an OIG Special Agent, who stated that in 2004, he was assigned to conduct an
investigation involving allegations that an RIK employee had possessed and used illegal drugs. In
connection with this investigation, in September 2005, he interviewed this employee and Smith, who
was this employee’s supervisor. The Special Agent said that during his interview, Smith denied any
knowledge of drug activity involving himself or this employee. Smith also stated that he and this
employee had only a professional business relationship and that he had only been to her residence on
one occasion for a party with other MMS employees. The Special Agent stated that the RIK employee
similarly denied using or distributing drugs in her interview. She also denied having any type of
personal relationship with Smith.

Agent’s Note: A review of the written questions asked by the Special Agent during these interviews, as
well as a review of the notes taken by both the Special Agent and the assisting special agents during
these interviews, disclosed that the Special Agent’s recollection of these interviews were entirely
consistent with both the questions and the notes.

Subsequent to the time of her original interview with the OIG Special Agent, we re-interviewed this
employee. During this second interview, she stated that Smith told her what to say during her interview
with the Special Agent. Specifically, she stated that Smith told her that he had denied everything during his
interview with the Special Agent and that she should “just say I’ve never been to your house.”

When we interviewed one of the RIK employees, she recalled that several months after the incident in
Smith’s car, Smith called her into his office in order to notify her of an OIG investigation. Smith said it
was likely that the OIG would interview him and ask questions about what had happened with her in
his car. Smith went on to tell her that if these questions were asked by investigators, he planned to
deny everything about the incident.

During his November 2007 interview, Smith stated that his September 2005 statement to the OIG that
he had only a professional business relationship with an RIK employee was “not true.” He also stated
that he attempted to “downplay” other aspects of his relationship with this employee during this same
OIG interview because he was “scared” by the questioning and he did not want to “self incriminate”
and “ruin” his career. Smith stated that he felt that the OIG had no authority or reason to investigate his
alleged sexual relationship with this employee or his alleged drug use, which Smith said occurred
during his own time, away from MMS. “Whether that translates to not telling the truth to the OIG, I
don’t know,” Smith said.

Smith also denied ever telling anyone to lie to OIG agents about his relationship with her or to lie about
any other matter. Instead, Smith stated that he only told people that “no one has a right to know what I
do on my personal time.”




                                                     22
